             UNCLASSIFIED

     United States Department of State
   and the Broadcasting Board of Governors
        Office of Inspector General




Memorandum Report

The Foreign Affairs Systems Integration
      Project Needs Redirection



Report Number IT-A-03-02, November 2002




             UNCLASSIFIED
                                       UNCLASSIFIED



      The Foreign Affairs Systems Integration Project Needs Redirection

                       Memorandum Report Number IT-A-03-02

                                          November 2002




Federal organizations are increasingly turning to knowledge management—a
collaborative and integrative approach to creating, capturing, organizing, accessing,
using, and reusing intellectual assets—to get the right information to the right
people at the right time to ensure effective decision-making and management
actions. To meet the need for improved information technology (IT) and knowl-
edge management to support the U.S. foreign affairs community overseas, the
Department is leading federal agency efforts to acquire and test the Interagency
Collaboration Zone (ICZ), which is a standard system featuring a web-based portal,
applications, and tools for world-wide communications, information sharing, and
knowledge management.

    This report focuses on the results of the Office of Inspector General’s (OIG)
review of the Department’s strategy for establishing the common knowledge
management system under the auspices of the Foreign Affairs Systems Integration
(FASI) program office within the Bureau of Information Resource Management
(IRM). Specific objectives of the OIG review were to determine whether the
Department has (1) adequately justified and identified requirements for providing
the knowledge management system and collaboration tools, (2) ensured commit-
ment and effective coordination with user organizations internal and external to the
Department on the interagency systems approach, and (3) carried out pilot test
plans effectively. The scope and methodology for the review are discussed in
Appendix A.




OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   1 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED




2 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                       UNCLASSIFIED
                                       UNCLASSIFIED




                            RESULTS IN BRIEF

The FASI program office within IRM has been leading efforts to acquire and test an
interagency collaboration system as the basis for determining whether to proceed to
global system deployment. The initiative is currently at risk of not meeting the
objectives of supporting effectively a decision on an approach to communications
and knowledge management among the U.S. foreign affairs community overseas.
Specifically, FASI’s approach to planning and prototyping the system is not based
on adequate analysis of the mission and business processes that the system is
intended to support. Although FASI conducted surveys to compile system and user
requirements to support its ICZ approach and prioritized the requirements during
the prototype evaluation and vendor selection phase, the piloted ICZ system did
not reflect the priorities to ensure that only the most essential needs were ad-
dressed. The requirements identified also were not based on sufficient input from
the range of users and functions across participating organizations. Further, FASI
did not consider adequately using existing systems as potentially less costly alterna-
tives or coordinate with related projects to ensure that there was no duplication in
its approach for ensuring connectivity and knowledge management at overseas
missions.

    The FASI program office has made an effort to get representatives from other
foreign affairs agencies involved in the common system initiative. However, the
office has not been effective in securing executive-level sponsorship from all
agencies, documenting interagency agreements, or determining costs. Further,
while the office has coordinated with selected agency representatives, Department
bureaus, and overseas missions directly involved in the project, the office has not
marketed ICZ with other entities whose commitment will also be critical to sup-
porting global system deployment.

    World-wide deployment of ICZ depends heavily on the results of the pilot test
and evaluation. However, poor timing, lagging ICZ content management, IT
resource constraints, and unresolved system and technical problems have hindered
efforts to get pilot users trained, certified, and committed to using the system.
Further, the compression of the pilot schedule because of unanticipated delays has
also significantly reduced the pilot time frames and scope, leaving a diminished
basis for a senior management decision regarding global ICZ deployment.



OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   3 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED



            Because of these problems, OIG believes that the FASI program needs to be
       redirected. To maximize the benefits of its IT investments, the Department re-
       cently decided to merge FASI with a related messaging system replacement initia-
       tive. In this context, FASI program redirection should include a reexamination of
       user requirements and alternative approaches to meeting those requirements. As
       the lead agency for the initiative, the Department must also take steps to establish
       executive sponsorship, well-defined cost models, and interagency agreements to
       ensure funding and commitment to global implementation of the system. En-
       hanced FASI program office coordination with wider audiences across foreign
       affairs organizations would also help in promoting awareness and overcoming
       cultural barriers to using the system for interagency sharing and collaboration.




4 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                       UNCLASSIFIED
                                           UNCLASSIFIED




                                     BACKGROUND

The bombings of the American embassies in Kenya and Tanzania in 1998 focused
attention on the challenges that the U.S. government faces in the international
arena. The previous Secretary of State responded to the bombings by creating an
Overseas Presence Advisory Panel to consider U.S. overseas representation, ap-
praise its condition, and develop practical recommendations on how best to orga-
nize and manage overseas embassies and consulates.

     As a result of its study, the Overseas Presence Advisory Panel reported that the
United States had not made adequate political, economic, and technological adjust-
ments to manage changes in the global environment.1 The panel suggested that
presidential initiative, Department leadership, congressional support, and coopera-
tion among foreign affairs departments and agencies were needed to effect reform.
Along with recommendations for enhancements in such areas as security, financial
management, and consular services, the panel recommended that the United States
immediately upgrade its information and communications technology to improve
conditions overseas. The panel reported that the current IT infrastructure did not
provide diplomatic missions with the means either to acquire information from a
full range of sources or to disseminate it to a full range of audiences. The panel
also reported that embassies were equipped with antiquated, inefficient, and
incompatible systems incapable of even the simplest electronic communications
across department lines.

    To address the need for IT reform, the Overseas Presence Advisory Panel
recommended that the President direct foreign affairs agencies to provide their
overseas staff with electronic mail (e-mail), Internet access, a centrally-hosted
secure web site, shared applications, and tools to support unclassified interagency
communications around the globe. The panel proposed that the agencies accom-
plish the reforms by establishing a standard IT platform at all embassies using basic
off-the-shelf software and industry best practices. The panel also recommended
that, in conjunction with the interagency network, agencies provide public access
to the services of the foreign affairs community to support the functions of public
diplomacy. The panel proposed that following implementation of the unclassified
knowledge management system a classified system with the same capabilities also
be acquired.
1
    America’s Overseas Presence in the 21st Century, Report of the Overseas Presence Advisory Panel (Nov. 1999).


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002       5 .

                                           UNCLASSIFIED
                                        UNCLASSIFIED



           Using the Overseas Presence Advisory Panel report recommendations and
       related studies as a basis, the Department, through its FASI program office, has
       taken the lead in planning and managing a phased approach to prototyping (serving
       as proof of concept), testing, and implementing a sensitive but unclassified inter-
       agency system for enhanced overseas connectivity and collaboration. The inter-
       agency collaboration system, ICZ, features a common portal (e.g., a web site) and a
       search engine that provides secure access via the Internet to a range of services and
       information that overseas agency users may need to carry out their foreign affairs
       missions. For example, the portal is to provide ready access to host country infor-
       mation, news, and e-mail. The portal serves as a gateway to a collaboration zone
       and tools that support online chats, white boarding,2 shared calendars, and desktop
       audio- and video-conferencing.

           Congress provided the Department with approximately $17 million to carry the
       program through pilot testing,3 originally scheduled to be conducted from May 13
       to September 30, 2002, at embassies and consulates in Mexico and India.4 Senior
       foreign affairs management was to decide, based on the results of the pilot test and
       evaluation, whether to proceed with global deployment of the system, possibly in
       FY 2004.

           In early 2002, concerned about pilot test planning and management, the Under
       Secretary for Management formed an independent FASI Review Group to study
       ICZ pilot progress. The FASI Review Group concluded that the ICZ system was at
       high risk because it inadequately addressed user needs and had limited marketing
       and uncertain user buy-in. The Review Group also identified problems with
       underrepresentation of core business users in the ICZ pilot, inadequate training
       plans to meet the needs of overseas missions, unfocused communities of practice,5
       constrained resources, and contractor independence in the pilot evaluation. Fur-
       ther, pursuant to a broader assessment of the overall approach to knowledge
       management within the Department, officials within the Office of the Under
       Secretary for Management expressed concern about IRM leadership and the tech-
       nology focus of the interagency collaboration initiative. The Review Group issued
       2
        White boarding involves the use of on-screen bulletin boards to share ideas electronically among the
       staff.
       3
        H.R. Conf. Rep. No. 106-1005, at 294 (2000) states, in part, that $17 million would be for a pilot project
       to establish a common technology platform at overseas missions pursuant to recommendations of the
       Overseas Presence Advisory Panel.
       4
           Due to increased tensions between India and Pakistan, FASI dropped India from the ICZ pilot.
       5
        A “community of practice” is a group of individuals sharing a common working practice over a period
       of time, though not a part of a formally constituted work team. Communities of practice generally cut
       across traditional organizational boundaries and enable people to acquire new knowledge faster and more
       efficiently.


6 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



a series of recommendations to IRM and the Office of the Under Secretary for
Management for addressing these concerns. In an April 2002 memorandum, the
CIO generally agreed with the Review Group’s findings and recommendations and
outlined steps to address the deficiencies identified. OIG followed up on these and
other issues as part of its review of the FASI program and ICZ pilot test implemen-
tation.




OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   7 .

                                       UNCLASSIFIED
                                       UNCLASSIFIED




8 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                       UNCLASSIFIED
                                       UNCLASSIFIED




                            REVIEW FINDINGS



FASI COLLABORATION APPROACH NOT WELL
SUPPORTED
The FASI program office has not conducted adequate analyses on which to base its
approach for supporting overseas interagency collaboration. Specifically, the FASI
office did not consider adequately existing systems as alternatives to the ICZ that
the office designed. FASI also has not evaluated thoroughly business workflow
requirements as a basis for ICZ. Although FASI surveyed foreign affairs agency
representatives to determine and prioritize user requirements, it did not reflect
these priorities in its pilot ICZ system to ensure that only the most essential needs
were addressed. FASI also did not receive sufficient input from the range of users
and functions across the participating agencies. Such analyses, along with coordi-
nating the interagency initiative with several key IT enhancements in the Depart-
ment, are critical to supporting a decision on the best strategy for global system
deployment to meet overseas connectivity requirements.

Alternative Approaches Not Adequately
Considered

    Office of Management and Budget (OMB) Circular A-130 requires that deci-
sions to improve existing information systems or develop new systems be initiated
only when no alternative private sector or governmental source can meet the need
efficiently. By utilizing the lessons learned from existing IT systems, an organiza-
tion could save time and money.

    FASI program officials told OIG that they met with representatives from a
range of federal and industry organizations to identify potential alternatives and
discuss their approaches to implementing knowledge management systems.
Through these meetings, FASI officials said that they gained advice and expertise
that helped with their approach to developing ICZ. Despite the insights obtained
from these discussions, FASI program officials did not consider adequately existing
knowledge management systems of other federal organizations as potential alterna-
tives to ICZ. FASI consulted with officials responsible for several web-based

OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   9 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



        collaboration systems, both new developments and commercially available prod-
        ucts, that they might have leveraged. However, FASI did not leverage the systems
        as alternatives, asserting that none of the products had all of the functions needed
        for sensitive but unclassified interagency communications and collaboration.
        Instead, FASI contracted with three vendors to develop prototypes and after
        extensive evaluation selected one of the vendors to integrate a suite of collabora-
        tion software to meet its needs for the pilot.

             One system that FASI decided not to leverage was the classified Intelink-S; this
        decision is not well supported. Intelink-S is a collection of web-based information,
        tools, and search engines hosted on the Department of Defense’s Secret Internet
        Protocol Router Network. It is the principal network used within the U.S. intelli-
        gence community for secure, information processing up to the secret level; the
        Department already has a presence on it. Intelink-S, like the projected ICZ, sup-
        ports government-wide communications, collaboration, and knowledge sharing on a
        global scale. It integrates a range of user-specific tools and applications, including
        a language translator, bulletin boards, and chat capability. Its enterprise portal puts
        all of the tools and applications together and authenticates user access to specific
        information.

            Numerous officials internal and external to the Department told OIG that
        Intelink-S could meet the need for overseas interagency collaboration and knowl-
        edge sharing at a fraction of the cost of ICZ. Several officials even said that such a
        classified system might be more suited to their needs than the projected sensitive
        but unclassified ICZ. FASI officials countered that the applications and tools
        currently available on Intelink-S were not adequate for their needs. FASI officials
        also said that they were specifically prohibited from developing a classified system,
        although they could have adapted Intelink-S technologies for their purposes.

            The Open Source Information System (OSIS) is another option that FASI
        officials decided not to pursue. Developed and managed by the intelligence com-
        munity since 1994, OSIS is a virtual private network for the exchange of unclassi-
        fied U.S. government and open source information among the existing networks of
        about 40 federal agencies, military commands, and other selected organizations
        with similar information requirements. The Office of Intelligence Resources and
        Planning within the Bureau of Resource Management (RM) manages the
        Department’s gateway to the OSIS network. OSIS provides protected and moni-
        tored access to the Internet to allow users a single point of access to unclassified
        intelligence information. OSIS also provides e-mail capability, a global directory,
        and a few specific tools such as instant messaging. RM officials suggested that the
        OSIS network would meet the need for overseas connectivity without requiring the


10 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                          UNCLASSIFIED



establishment of an additional infrastructure specifically to support the projected
ICZ. They offered OSIS as a virtually cost-free alternative to the FASI approach,
using the existing infrastructure, which would preclude the need for additional
public key infrastructure technology6 and overhead. They said that connecting
diplomatic missions to the OSIS network would require only the additional band-
width needed to support integrated systems communications.

     IRM officials provided numerous reasons to RM for not leveraging OSIS. For
example, IRM cited information security as a factor, but RM countered that OSIS is
a strong, secure network with firewalls and virus protection, a network provided by
the same community that manages top-secret information processing. IRM officials
also stated that OSIS ceased to be an option after it appeared that the network
would discontinue operations at the end of FY 2002. This never happened,
however, and IRM did not revisit the idea of using OSIS as a viable alternative to
its ICZ approach. Finally, in October 2002, the Department agreed to expand use
of OSIS, via OpenNet Plus, to provide a protected network for sharing unclassi-
fied, sensitive but unclassified, and law enforcement materials within the intelli-
gence community.

    Even though officials responsible for these alternative systems said that tool
sets could be enhanced for FASI purposes, they questioned the need for a full array
of collaboration tools from the outset to support overseas knowledge sharing, as
did a number of other headquarters representatives and overseas pilot testers OIG
interviewed. They said that another alternative to the FASI approach might be
simply to provide basic connectivity, e-mail, and a global directory service first and
add more comprehensive data-sharing capabilities and collaboration tools later as
the initiative progresses. These officials said that there are several commercial off-
the-shelf products available to provide these basic capabilities. Using an alterna-
tive such as OSIS might initially offer less utility, but would also be far less expen-
sive. Deploying the tools incrementally instead of all at once would also be less
risky and burdensome on system users.

Lack of Business Process Analyses

OMB Circular A-130 states that, as part of the IT acquisition process, agencies
must identify and document work performed to support their missions, vision, and
performance goals. To accomplish this, agencies must analyze the information
utilized in their business processes, identifying where the information is needed,
6
 Public key infrastructure is a technology designed to protect Internet electronic transactions through
digital certificates and encryption keys. Digital certificates are used to verify and authenticate the validity
of each party involved in an Internet transaction, and encryption keys are used to secure the data.


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002      11 .

                                          UNCLASSIFIED
                                        UNCLASSIFIED



        how it is used, and how it is shared to support mission functions. At a high level,
        agencies must describe and document the relationships among data and IT. The
        application of up-to-date IT presents opportunities to promote fundamental
        changes in agency structures and work processes.

            FASI did not conduct adequate business process analyses as a basis for its ICZ
        approach. The business case document for the ICZ pilot identifies streamlined
        agency business processes as one of the anticipated benefits of the operational
        system. Specifically, the document outlines the expectation that ICZ will help
        reduce staff time by allowing people on low-value business processes to devote
        more time to higher value activities. However, the business case goes on to state
        that business process or workflow analyses have not been performed for three
        major foreign affairs business areas: crisis management, policy formulation, and
        administrative support, and data on these business areas is currently unavailable.
        FASI officials conceded that such analyses had not been completed, stating that
        they had not had enough time to focus on workflow analyses during the course of
        the program. The business case document indicates that workflow data will be
        needed to finalize and support global deployment of the interagency system.

        Input to ICZ Requirements Could Have Been
        Improved

        FASI surveyed foreign affairs agency representatives to identify user requirements
        and expected capabilities of ICZ. FASI used the Managing State Projects method-
        ology as a framework for defining, documenting, and prioritizing the requirements.
        The methodology specifies three types of users—executive management, system
        administrators, and system users—for gathering requirements. The various types of
        users are meant to establish checks and balances for ensuring that all user needs are
        addressed. Despite this methodical survey approach, however, FASI did not
        include in the ICZ system only those requirements that were essential for overseas
        connectivity. FASI also did not ensure adequate user representation from across
        the various components and functions of participating agencies to ensure that all
        needs were identified.

             Requirements Prioritization Not Reflected in Pilot
             ICZ System

            From its surveys, the FASI program office initially identified a total of 90 wide-
        ranging requirements. Some requirements were similar, and the office combined
        them, reducing the total to about 70. User needs were examined to determine


12 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



which ones were feasible for the pilot and which ones were outside the scope of
the project. The resulting requirements were categorized as either user or system
requirements. User requirements included interagency e-mail, access to informa-
tion of interest at overseas missions, support for crisis coordination and policy
formulation, and access to online administrative services. System requirements
involved network infrastructures, security, and collaborative processing tools.

     FASI program officials told OIG that the requirements compiled served to
validate the projected capabilities of the system that had been identified under
earlier project management. Program officials provided documentation on how
they mapped system requirements to user requirements, including a tally of how
often the requirements were suggested by user representatives. FASI prioritized
these requirements in the prototype evaluation and vendor selection phase. How-
ever, FASI did not reflect these priorities in the pilot ICZ system by preserving only
those requirements that were most critical to meeting the need for user connectivity
and eliminating those that were superfluous. For example, although FASI officials
did not identify capabilities such as white boarding or desktop audio- and video-
conferencing as mandatory requirements, they included the capabilities in the pilot
ICZ system. FASI generally used the 70 requirements as a basis for designing the
ICZ prototype. The resulting ICZ system includes a range of collaboration tools
and technologies, some of which may not be needed by users.

     Since pilot deployment, users have not been entirely pleased with the system.
Users throughout the foreign affairs community told OIG that many of the capa-
bilities of the system, such as calendars, chat, or instant messaging, were already
available through other means. Further, a number of users said that they had no
need for capabilities such as white boarding and online conferences and meetings,
which were not a viable substitute for face-to-face communication. In general, the
majority of the pilot users that OIG interviewed said that the essential capabilities
that they required overseas were interagency e-mail and access to a global foreign
affairs directory.

    Incomplete User Representation in Survey
    Approach

    FASI did not ensure comprehensive user input from across the various compo-
nents and functions of all participating organizations in identifying user require-
ments. The FASI program office interviewed 85 people from eight different agen-
cies, including the Department, with varying levels of responsibility concerning
their interagency information and collaboration requirements. They included senior
executives, mid-level managers, country desk officers, and public diplomacy offic-


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   13 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



        ers at headquarters, as well as special agents and general services, regional security,
        and administrative officers overseas.

            Within the Department, however, FASI focused its surveys on Mexico and
        India, the planned ICZ pilot locations, and the corresponding Bureaus of Western
        Hemisphere Affairs and South Asian Affairs. They generally left other overseas
        missions and regional bureaus out of the process, leaving some doubt that FASI
        had gathered a complete list of user requirements. For example, officials with
        whom OIG met from regional bureaus, such as the Bureau of African Affairs, did
        not believe that the FASI pilot locations were representative of overseas mission
        needs or conditions world-wide. They believed that the pilot locations selected
        might not take into account the systems requirements of very small or understaffed
        missions or those that were prone to harsh weather, poor infrastructures, and high
        crime.

        Need for Coordination with Related IT Projects

        The Clinger-Cohen Act7 requires that agencies identify IT investments that could
        result in shared benefits or costs across organizations. OMB Circular A-130 also
        requires that federal organizations ensure that planned IT developments or im-
        provements do not duplicate unnecessarily the IT initiatives within the same
        agency. FASI program officials told OIG that they coordinated the ICZ initiative
        with several related IT projects of other Department bureaus and offices, including
        the OpenNet Plus program and A Logical Modernization Approach. However,
        ongoing coordination with other major programs is key to ensuring system
        interoperability, where feasible, and that IT resources and efforts are expended
        effectively to meet shared or overlapping IT objectives.

            For example, FASI will require ongoing coordination with the efforts of the
        Bureau of Administration, Office of Logistics Management, (A/LM), to develop
        and pilot an Integrated Logistics Management System. These efforts involve the
        development of a unified supply chain and logistics management system that
        incorporates commercial off-the-shelf technologies and industry best practices to
        replace over 25 existing logistics management systems. The scope of the system
        encompasses acquisitions, transportation management, diplomatic pouch and mail,
        property management, and customer support. The system includes a web portal
        that will enable overseas missions to track orders throughout the procurement
        process, access data at the desktop, improve reporting, shop online via electronic
        catalogs, and save time by eliminating the need for repeated data entry, among

        7
            The Information Technology Management Reform Act (P.L. 104-106, Div. E, 110 Stat. 642 (1996)).


14 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



other functions. Although A/LM officials told OIG that there was no duplication
between its program and the FASI initiative, OIG found that the mid-level user and
system requirements that FASI developed for ICZ included procurement and
property management functions that were similar to capabilities of the logistics
system.

    An A/LM official said that the two offices have coordinated in a Collaborative
Application Technology Solutions forum sponsored by IRM’s Systems and Integra-
tion Office. The forum was designed to improve collaboration among the sponsors
and managers of the Department’s technology initiatives. The forum brought
together various bureau representatives that provided presentations about current
IT projects within their bureaus, including the logistics management system and the
FASI initiative. The A/LM official said that the two offices intended to continue
to coordinate to maximize the benefit of potentially complementary functions
within their systems. Frequent and consistent coordination will be key to ensuring
that no duplication occurs among related functions.

    Another initiative that may provide capabilities similar to ICZ is the
Department’s planned upgrade to its messaging capabilities. In early 2002, the
Office of the Under Secretary for Management began planning for the development
of a new messaging and information exchange system to replace its antiquated
telegram system. The office formed working groups to evaluate existing and
proposed system characteristics and to determine by October 2002 the best way to
proceed with system design and implementation. Officials within the Office of the
Under Secretary for Management timed this messaging system decision to be
concurrent with ICZ pilot completion, anticipating a joint decision on whether to
proceed with implementation of the two projects and, if so, whether they should be
integrated. Although ICZ is an interagency initiative to benefit the entire foreign
affairs community, and messaging is primarily intended for the Department, the two
projects have very similar objectives. Specifically, both systems are to include
collaboration and knowledge management tools, instant messaging, remote access,
and a customizable portal.

    On September 11, 2002, the Under Secretary for Management decided to merge
the FASI program with the messaging system replacement initiative to maximize
the Department’s IT investment and interagency collaboration. This is a good first
step toward eliminating redundant effort and acquiring collaboration technology in
the context of the more overarching project where it logically belongs. However,
the challenge remains to extend the messaging initiative beyond the realm of the
Department to the wider foreign affairs community and ensure that Overseas
Presence Advisory Panel recommendations on interagency connectivity are ad-


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   15 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



        dressed. Lessons learned from the FASI initiative to date can also assist the
        Department in its approach to working with other agencies to meet these objectives
        effectively.



        INADEQUATE INTERAGENCY COMMITMENT
        The FASI program office has made a number of efforts to get other foreign affairs
        agencies involved in the ICZ project. The office was successful in obtaining
        assistance in specific areas, such as preparing the statement of work for the proto-
        type and selecting the contractor to conduct the pilot. However, the FASI office
        lacks the necessary commitment from several key agencies, in part because it did
        not involve effectively other agency IT executives and did not develop a memoran-
        dum of understanding to document agency roles and responsibilities for the pro-
        gram. Further, the FASI program office has only recently developed cost estimates
        for globally deploying the system and agencies have not yet agreed to help with
        project funding.

        Mixed Success in Ensuring Agency Participation

        OMB Circular A-130 directs that an agency reduce risk to an IT system by ensuring
        the involvement and support of its users. Toward that end, the Department at-
        tempted to involve representatives from the nine major foreign affairs agencies in
        developing and testing ICZ. The Department’s Chief Information Officer (CIO)
        chaired the Interagency Technology Subcommittee, which was established to
        address recommendations in the Overseas Presence Advisory Panel report on
        upgrading IT capabilities at overseas missions. FASI program officials also worked
        to engage other foreign affairs agency representatives in the project in the context
        of its various working groups. Further, the Department’s CIO and deputy CIO
        attended administrative conferences and gave numerous briefings to explain ICZ to
        federal agency representatives and bureaus and offices within the Department.

             Despite these efforts, the FASI program office has had mixed success in ensur-
        ing agency involvement and support for the collaboration project. On the positive
        side, a core group of five or six representatives from several federal agencies,
        particularly from the Departments of Agriculture and Justice, Defense Intelligence
        Agency, and U.S. Agency for International Development (USAID), have been
        involved in the interagency collaboration effort since its beginning. These officials
        say that their agencies are very supportive of the project. For example, a represen-
        tative from USAID identified key opportunities via ICZ to share economic data-


16 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



bases to benefit Foreign Service officers. A representative from the Drug Enforce-
ment Agency stated that the former Attorney General mandated participation in
the program. The Department of the Treasury (Treasury) detailed an employee to
the FASI program office to work on this project. Such representatives have at-
tended project subcommittee meetings regularly and played key roles in supporting
specific areas of program management, including selecting a vendor to conduct the
ICZ pilot. This vendor selection process involved foreign affairs agency represen-
tatives from various agencies.

    Apart from this core group of representatives, however, there is limited in-
volvement in the project from within each participating agency. Officials told OIG
that awareness of the initiative was not widespread in their agencies. For example,
a Department of Defense (Defense) organization representative said that except for
a limited number of employees, no one in their organization knew about the FASI
project. A representative from another agency said that FASI included a small
interagency presence, but more involvement was needed from Washington.

    Additionally, one person may be representing many groups with different
missions and needs within a single agency. By way of illustration, a Treasury
official is responsible for representing the Internal Revenue Service, Customs
Service, Secret Service, and Alcohol, Tobacco, and Firearms Bureau, whose respec-
tive missions are very different. Further, Defense, with its range of military ser-
vices and component organizations, also has not had much representation in this
project, with the exception of two agencies, the Defense Intelligence Agency and
Defense Security Cooperation Agency. Together, these agencies are a very small
part of the entire department, and there is little assurance that their mission-
specific needs reflect those of Defense as a whole. A Defense representative said
that he tried to get more Defense officials involved but was unsuccessful, owing in
part to the fact that several Defense agencies already had their own knowledge
management systems. For example, the Army has an interactive portal, “Army
Knowledge Online,” including collaboration tools that personnel world-wide use
for e-mail, instant messaging, online transactions, and distance learning.

    The FASI program office has also been unable to obtain the full commitment of
law enforcement agencies. Although actively involved in project planning, repre-
sentatives of these agencies said that they did not intend to share sensitive or
mission-critical information using ICZ because of information security concerns.
ICZ is a sensitive but unclassified system, and law enforcement was concerned that
different agencies had varying definitions of what was “sensitive” and what was
not. They feared that other agencies might not safeguard their information in the
manner they deem appropriate. Law enforcement representatives from one agency


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   17 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



        said that although they would not share their information they intended to use
        stand-alone terminals to communicate and access the information that other
        agencies provided on the sensitive but unclassified network for strictly administra-
        tive purposes.

        Obstacles to Ensuring Agency Buy-in

        Such uneven agency involvement and commitment in the ICZ project may be
        attributed to a number of factors. Specifically, the FASI program office has not
        ensured ongoing involvement and sponsorship from other federal CIOs to help
        ensure priority and support within their agencies for achieving common project
        objectives. The FASI program office also has not documented agreements or
        defined ICZ costs in a timely manner to help secure interagency buy-in. Addressing
        security concerns will also be key to project success.

             Lack of Interagency Executive-Level Direction
             and Sponsorship

            As with any major project, senior-level sponsorship is critical to ensuring
        success. The FASI program office has not ensured active participation by the CIOs
        of the nine major foreign affairs agencies in the Interagency Technology Subcom-
        mittee. Their participation is key to obtaining the support of other agency manag-
        ers and users for IT initiatives and is especially important on a high-profile and
        potentially high-impact IT project such as ICZ. Although the Technology Subcom-
        mittee is responsible for defining operational requirements, selecting specific
        enabling strategies, and identifying needed funding for the overseas technology
        improvements, the CIOs have not had ongoing involvement. According to officials
        OIG interviewed, the CIOs are not all fully committed to the project. Their
        attendance at the subcommittee meetings has been inconsistent and has shown a
        marked decline since the project’s inception.

            For most agencies OIG interviewed in Mexico City, little information or guid-
        ance on FASI had been provided from headquarters. Consequently, a number of
        senior officials overseas made the decision as to whether the agency would partici-
        pate actively in the program. For example, lacking direction from Treasury head-
        quarters in Washington, Customs representatives were involved superficially in the
        pilot test, although they were aware of the program’s importance to the embassy
        and expected to provide more support after global deployment. Other agencies
        decided not to participate at all. For example, Alcohol, Tobacco, and Firearms
        representatives said that they were not involved in the pilot because it required too


18 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                           UNCLASSIFIED



much of their time. They said that they already had many of the capabilities
included in ICZ. An Internal Revenue Service representative said that the agency
did not plan to use the system because they had no need for it.

       Interagency Memorandum of Understanding
       Needed

    One strategy that the Department might use to encourage executive-level
sponsorship for the interagency collaboration effort is the development of a memo-
randum of understanding, documenting the roles and responsibilities of the various
agency participants. The FASI office drafted a memorandum of understanding
between the Department and other foreign affairs agencies regarding just the pilot
phase of the ICZ project. However, because of time constraints, the Department
never obtained signatures to finalize the memorandum. The Department nonethe-
less posted a security agreement to the ICZ portal, requiring user acceptance of its
restrictions before gaining access to the web site.

     Although a November 2001 General Accounting Office (GAO) report8 recom-
mended that the Department define agency roles and responsibilities before global
deployment of the ICZ system, the Department has not yet taken steps to do so.
FASI program officials said that because of their aggressive project schedule and
late start, they did not have time to focus on establishing an interagency agreement.
These officials also said that, on the advice of their interagency partners, they
elected to defer formal interagency agreements until a decision was reached regard-
ing deployment. Similarly, a foreign affairs representative said that while the
project was in the pilot phase with funding by the Department alone, no memoran-
dum was needed. Nonetheless, documenting interagency agreement on shared
responsibilities for project management, security, and funding remains an important
step for the Department to complete before proceeding with global ICZ implemen-
tation.

       Cost Estimates Not Timely

    Another strategy for ensuring project commitment is to provide timely cost
estimates along with information on the expected benefits of the program. For a
long time, however, the FASI program office provided no concrete cost information
on the project, creating uncertainties that hindered the securing of agency support.
Specifically, in July 2001, the Department established an Interagency Finance
Working Group to discuss project costs and proposals for how ICZ might be
8
    State Department Led Overseas Modernization Program Faces Management Challenges (GAO-02-41, Nov. 2001).


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   19 .

                                           UNCLASSIFIED
                                        UNCLASSIFIED



        funded. FASI officials told OIG that the working group met a few times in those
        initial months. However, after a meeting in September 2001, the working group did
        not meet again until about nine months later, and it still had not developed defini-
        tive information on the costs for global deployment.

            Lacking cost information during this formative stage of the program, participat-
        ing foreign affairs agencies did not have a good basis to determine whether to
        commit to ICZ implementation. For example, some agency representatives said
        that they needed cost estimates to determine whether the project would add value
        to their mission capabilities given the incurred costs. A number of agency repre-
        sentatives expressed concerns about whether they could afford the interagency
        collaboration system at all. Small agencies were particularly concerned about
        absorbing the cost of the tools selected for ICZ, which they believed to be very
        expensive. In addition, a representative from a fee-for-service agency concluded
        that if ICZ costs were too high, the agency would have reduced ability to remain
        competitive.

            Once the project was accepted by their respective agencies, foreign affairs
        representatives would need ICZ cost information to determine how much to
        include in their agency budgets. In the absence of this information, no agency had
        allocated money for the program for FYs 2003 and 2004, which raised questions
        about whether the foreign affairs community would be able to begin global imple-
        mentation as originally planned. Some officials believed that if ICZ was not
        implemented until 2004 or beyond some agencies might lose interest in the project.

            In June 2002, FASI reconvened a meeting of the Finance Working Group to
        address the issues of costs and funding for global ICZ deployment. During the
        meeting, FASI officials estimated costs for global deployment at between $200
        million and $235 million, depending upon the approach taken. FASI officials said
        that they would not know how good the estimates were until they reached global
        deployment. The working group also discussed the possibility of requesting a
        central appropriation from OMB, although such plans have not yet been finalized.

             Concerns About Security of Shared Information

            Agency reluctance to transfer information in a sensitive but unclassified envi-
        ronment also poses a hindrance to ICZ success. As discussed above, law enforce-
        ment agencies do not intend to share information on ICZ because of information
        security concerns. Representatives from these agencies explained that they perform
        most of their tasks on systems with higher levels of security. Their reasons for
        higher security levels include protection for information sources, assurance that


20 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



information is not used for unauthorized purposes, concerns about lawsuits if
information is mishandled, and compliance with laws that prohibit the disclosure
of certain information. Moreover, law enforcement officials said that they typically
had difficulty sharing information not only across agencies but also within them.
One law enforcement official said that when his agency did share information, they
were likely to extract it from another source, sanitize it, and send it out on a dis-
kette rather than online. While these law enforcement representatives recognized
that currently there is pressure from the Congress to share information among their
agencies, they said that they would prefer a classified system for collaboration.

    Representatives from Treasury and several bureaus within the Department that
were not involved in law enforcement also expressed interest in a classified system
rather than the sensitive but unclassified ICZ for information sharing. They said
that a classified system might be more appropriate for the type of work in which
they were involved. Further, as an alternative to using a single interagency collabo-
ration system with a low level of classification, some representatives agreed that
there is an increasing need to share electronically information horizontally and
vertically across various security levels. One official cautioned, however, that it
would take time for the federal community to collaborate in general, not to mention
sharing information across several security levels as a normal way of doing busi-
ness.

    In contrast, there are federal agencies that would prefer that the public have
greater access to ICZ because their missions require them to work closely with
representatives of foreign governments, academia, regulatory authorities, and U.S.
companies and private citizens. Representatives from these agencies are concerned
that the level of security required to use the system may preclude them from
collaborating with people and businesses that are important to their respective
missions. Striking a balance that considers and satisfies the diverse missions of
every foreign affairs agency is a difficult task that must be resolved to ensure
support for the ICZ initiative.



PILOT TEST PROBLEMS NEED TO BE RESOLVED
The decision whether to implement ICZ globally depends heavily on the results of
the pilot test and evaluation; therefore, it is imperative that the test and evaluation
be comprehensive and conclusive. Based on OIG’s assessment of pilot operations
in Mexico City in late August 2002, however, the program experienced a number of
problems, including poor timing, inadequate communications and coordination,


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   21 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



        ineffective content management, and system and technical difficulties. Given the
        resource and schedule constraints and corresponding reductions in the scope of the
        pilot, there is increased risk that the test and evaluation will not provide an ad-
        equate basis on which to make the decision concerning global deployment. Depart-
        ment officials agreed with OIG’s assessments of the pilot test and evaluation and
        have taken steps to ensure that the efforts are productive.

        Poor Timing of the Pilot Test

        The timing of the pilot during late summer 2002 posed a serious challenge for
        Mexico City in terms of getting staff trained and focused on using the system.
        Though originally scheduled for May-September 2002, the test schedule was
        compressed into the August-September 2002 time frame, owing to delays and
        remedial work that had to be done to make the system ready. Much turnover
        occurred during this time. For most employees, Mexico City is a two-year assign-
        ment, and employees typically rotate out during the summer cycle, creating an
        annual loss of about one-third of the staff.

            Employees who were to rotate generally were not concerned about taking the
        training, and those who did take it often departed before the pilot began. Con-
        versely, many new arrivals in Mexico City knew nothing about the system and
        required training. In addition, and due to the scheduled activities at the embassy,
        many new arrivals did not have time for training. They had to focus on embassy
        operations and therefore had less potential to provide meaningful input to the pilot
        test and results. A number of employees were vacationing during the summer
        months and were not available for training. Still others were busy preparing for
        high-level visits or international conferences, put off the training as a low priority,
        or would take the time only for abbreviated instruction. Employees were often
        consumed by supporting other ongoing IT efforts to provide classified connectivity,
        desktop access to the Internet as part of OpenNet Plus, automated telegram
        distribution via CableXpress, and replacement of legacy accounting systems with
        the Regional Financial Management System. For these employees, the FASI pilot
        test was perceived as another burden in addition to their regularly assigned duties.

        Ineffective Content Management

        Content management of the ICZ web page has lagged. The objective of the FASI
        program was to encourage use of the pilot system; therefore keeping the informa-
        tion contained in the ICZ useful and up-to-date was essential. FASI’s initial plan
        was for officials in Washington to manage the content. This proved to be a cum-


22 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



bersome and time-consuming process; each time there was a need to change infor-
mation on the web portal, officials in Mexico City had to contact Washington
account executives to make the change. Consequently, information posted to the
system became stagnant and out-of-date. Users in Mexico complained that there
was little relevant data and few useful links on the “splash page” to help them in
their work. Users eventually resorted to other news sources and web pages to get
information. FASI officials ultimately recognized the need for local managers to
keep the web page current and in August 2002 assigned content management
responsibility to the embassy’s information systems officer.

    The information systems officer agreed that local content management was the
best approach to keeping information on the system current. However, this official
also thought that FASI should have provided content management training to local
officials much earlier. This official suggested establishing a new office on-site with
two or three content managers and technical staff to support each community of
practice. The new office would be locally responsible for web development,
design, and portal page updates.

System and Technical Problems Unresolved

System and technical problems experienced during the pilot in Mexico City frus-
trated users and caused them to lose interest in using ICZ. As a result, they re-
sorted to other available tools and technologies to perform their daily activities.
The system problems also interrupted training activities and forced the cancellation
and rescheduling of classes. Embassy IT staff who worked to address the prob-
lems feared that the system had been deployed for pilot implementation before
being adequately tested and perfected. The problems experienced included:
•   Screen Degradation. After smart card readers were installed on their desktop
    computers, pilot users in Mexico City experienced brown or faded screens
    when they attempted to log on to ICZ. IT staff in the embassy became
    overwhelmed with user requests for assistance; so, they decided not to issue
    any more smart cards or install readers until the situation was resolved. This
    decision later worked to their disadvantage; after they corrected the problem,
    they had to rush to eliminate the backlogs in smart card distribution and card
    reader installation.
•   Incorrect Software Version. There was confusion regarding the software that
    FASI sent to the pilot locations for installation. The initial version was
    incorrect, requiring the FASI office to follow up by supplying a new version.
    Some of the previous versions had already been installed, however. Embassy



OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   23 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



             officials told us that when technical personnel tried to correct the problem by
             installing the new version on top of the old, the software did not work.
        •    Connectivity Issues. The problems with ICZ system connectivity heightened
             frustrations with using the system. Pilot users in Mexico City told OIG that
             they were often unable to connect to ICZ during initial logon and were
             frequently disconnected while working with several of its tools at one time.
             For example, one agency representative attempted to log on to ICZ several
             hours before an online meeting to ensure a successful connection. It took the
             representative almost eight hours to link to the system after the initial at-
             tempt. IRM deployed a team of technical specialists to address this issue.
        •    Firewall Incompatibility Problems. Because of firewall incompatibility
             problems, other federal agencies were unable to link to ICZ using their
             systems and Internet connections. Embassy IT officials sometimes worked
             around this problem by providing an interagency user with a second terminal
             and OpenNet Plus access to allow the user to connect to the collaboration
             zone at the desktop level. The user had a single monitor and a switch to
             change back and forth between the two systems.
        •    System Slowness. According to Mexico City IT management staff, accessing
             the collaboration zone was an extremely slow process. Users had to wait
             repeatedly as they progressed from one ICZ window to the next. This was
             especially troublesome when accessing certain features such as chat capabil-
             ity, which required 14 mouse clicks. Technical staff found no pattern to the
             slowness, however, and believed that it might be a circuit capacity issue. For
             example, they said that use of ICZ tools such as white boards and transmis-
             sion of large graphic files place an undue burden on the circuit. FASI pro-
             gram officials were uncertain as to whether a circuit upgrade would improve
             the situation.
        •    Insufficient Equipment. Many prospective ICZ users in Mexico City did not
             have adequate hardware to access the ICZ. Several still had 64-megabyte
             desktop computers, although faster equipment with 128 megabytes, the
             minimum standard configuration, is needed. A system trainer said that users
             also needed larger monitors to view adequately all of the icons displayed on
             ICZ.
        In an attempt to correct these problems, FASI sent contractors to Mexico City to
        pinpoint the causes for system slowness and disconnections. To assist them in
        compiling accurate data on use of the system, embassy managers directed users to
        participate in two exercises each week in their respective communities of practice.
        According to Department senior management, these system and technical issues
        must be resolved before any consideration of world-wide ICZ deployment.


24 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                        UNCLASSIFIED



Constrained Resources and Schedule for Pilot
Operations

The FASI program office underestimated both the amount of time and personnel
needed to prepare effectively for the pilot. The ICZ pilot was originally scheduled
to take place from May 13 to September 30, 2002, with users at headquarters and
at embassies and consulates in Mexico and India.9 To accommodate the time
needed to address corrective actions directed by the Office of the Under Secretary
for Management, however, IRM agreed to continue with plans to start the pilot on
May 13 but divide it into three phases: (1) ramp up from May 13 to July 15, (2) full
deployment beginning on July 15, and (3) evaluation from July 15 to September 30.
Subsequently, in June 2002, the Under Secretary for Management agreed to change
the formal evaluation start date to the beginning of August to allow additional time
to identify and train users.

      During its visit to Mexico City in August 2002, OIG found that activity was
still under way to prepare for the pilot. Communities of practice were still being
formed, and user preparation training in Mexico was still under way. FASI staff
were working under tight schedules to get the users up and running and to meet the
deadline. Engineering staff were challenged with doing integration activity, coordi-
nating with the systems staff from other foreign affairs agencies, testing, and going
through control gates at the same time they were deploying the pilot. Engineering
officials advised that technical staff were overwhelmed and not well matched with
the target number of users. They also said that ICZ was too new and they were
encountering too many issues to making the pilot sites operational. As a result,
they were having to cut corners.

    The compressed schedule was also causing a strain on technical staff in Mexico
City and at the consulates. For example, IT officials in Mexico City, in addition to
their normal responsibilities, were helping to deploy the pilot, which involved
implementing security features and providing support for the consulates. Many of
the consulates did not have information management officers and had to rely on
the administrative officers to act as local registration authorities for the issuance of
public key infrastructure certificates for security and authentication. However,
because of the administrative officers’ limited knowledge of IT, Mexico City had
to send staff to the consulates to help out with public key infrastructure security
and authentication procedures. Mexico City also had to borrow staff responsible
for classified systems to assist with the FASI project. A Department representative
at the embassy said that owing to the complexity and cost of the project, the FASI
program office should have sent a site manager to coordinate with Washington.
9
    Due to increased tensions between India and Pakistan, FASI dropped India from the ICZ pilot.


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   25 .

                                        UNCLASSIFIED
                                        UNCLASSIFIED



            IRM officials agreed that the pilot schedule was extremely compressed and
        hampered by its timing during the peak summer rotation and vacation months.
        However, they explained that funding uncertainties, as well as a desire to meet
        program commitments, compelled them to push on. IRM officials briefed the
        Under Secretary for Management on the pilot status in September 2002. Ulti-
        mately, in coordination with IRM, the Under Secretary extended the pilot evalua-
        tion through October 31, 2002.




26 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED




                         RECOMMENDATIONS

OIG recommends that, upon completion of the pilot and within the context of the
overarching messaging initiative, the Under Secretary for Management direct the
Chief Information Officer, Bureau of Information Resource Management, and the
corresponding FASI program office to:
1. reevaluate and prioritize user requirements, and scale them back, if necessary,
   to meet minimum essential user requirements;
2. assess alternative approaches to meeting these essential requirements, includ-
   ing such options as Open Source Information System, and Intelink-S;
3. develop cost estimates, funding strategies, and a cost-benefit analysis before
   requesting commitment to the collaborative initiative; and
4. document interagency executive-level commitment to fulfill program objec-
   tives between the Department and other federal agencies through a memoran-
   dum of understanding.




OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   27 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED




28 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED




    DEPARTMENT COMMENTS AND OUR
             EVALUATION
The Office of the Under Secretary for Management provided informal oral com-
ments on the draft report, noting that the draft did not recognize the Office’s
preliminary review of the program and the concerns that it had raised. The Office
also requested that OIG address the report recommendations to the Under Secre-
tary for Management instead of to the Chief Information Officer, Bureau of
Information Resource Management. OIG revised the draft to address these con-
cerns. OIG also obtained written comments on a draft of this report from the
Bureau of Information Resource Management. We have included a copy of IRM’s
comments at Appendix B.

    In its comments, IRM concurred with the recommendations included in the
draft report. IRM provided additional documentation and suggested language that
it believed would be useful to OIG in revising and finalizing the report. OIG
reviewed the materials that IRM provided and incorporated changes throughout the
report where appropriate. In the bullets below, OIG addresses several specific
comments that IRM raised:
•   Program Objectives: IRM stated that the report does not recognize that the
    prototype and pilot were intended to serve as the study and decision phases
    for world-wide deployment. OIG disagrees. OIG met with a range of IRM,
    Department, and other Federal officials and conducted a thorough examina-
    tion of the supporting documentation provided regarding the program. OIG
    recognizes the time and funding limitations under which the program was
    carried out and understands that the overarching goal of the pilot test was to
    provide a basis for a decision on global system implementation. Further, OIG
    discusses these specific program constraints and objectives on the first two
    pages of the report. OIG’s primary concern was that, given the resource
    constraints, repeated compression of the pilot schedule, and the ICZ user and
    technical difficulties encountered, the FASI program would fall short in
    meeting these program objectives.
•   Planning: IRM asserted that planning and analysis of the mission/business
    processes was consistent with the Managing State Projects methodology for
    the study phase. OIG agrees that IRM used the Managing State Projects
    methodology for the study phase of the program and takes no issue with this


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   29 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



             approach. OIG summarizes FASI’s use of the methodology in the report;
             however, OIG remains concerned that despite use of the methodology, the
             FASI program office could not provide evidence of any business process
             analysis conducted.
        •    Requirements: IRM stated that requirements were gathered and prioritized
             with interagency participation and are reflected in the statement of work as
             mandatory versus optional. OIG recognizes this approach and has revised
             the report discussion to more accurately depict the requirements prioritization
             efforts. However, OIG is concerned that despite these efforts, included in
             the pilot ICZ system were many requirements identified by FASI as non-
             essential. System users that OIG interviewed consistently stated that the
             pilot system included many capabilities that they neither wanted nor needed.
             As noted in the report, a number of users had no need for capabilities such as
             white boarding and online conferences and meetings. The majority of users
             that OIG interviewed said that the essential ICZ capabilities were inter-
             agency e-mail and access to a global foreign affairs directory. OIG has not
             conducted an assessment of the new messaging system and therefore cannot
             address whether or not the requirements for the full range of collaboration
             tools included in the ICZ replicate those needed for messaging.
        •    Alternatives: IRM asserted that since FASI was directed to develop the ICZ
             at the sensitive but unclassified level, OIG’s recommendations and comments
             regarding use of the classified Intelink-S as an alternative and classified
             collaboration in general are not applicable. OIG disagrees. According to the
             Overseas Presence Advisory Panel Report, FASI was to develop “a secure,
             unclassified Internet website and shared applications for unclassified commu-
             nications among all agencies and around the globe.” Such direction should
             not have precluded the FASI program from examining the full range of
             networks already in place to determine how they might be adapted wholly or
             in part to meet the stated need.
                 IRM officials and other information security representatives both internal
             and external to the Department have agreed that, as a protected, interagency
             network, Intelink-S or its technologies could have been considered as an
             alternative to the ICZ approach. Although classified at a higher level than
             the sensitive but unclassified network that FASI sought to acquire, Intelink-S
             is currently and actively used by intelligence and foreign affairs agencies for
             secure, unclassified information sharing. Using this same logic, in October
             2002, the Department agreed to expand use of OSIS, via OpenNet Plus,
             providing a protected network for sharing unclassified, sensitive but unclassi-
             fied, and law enforcement materials within the intelligence community.



30 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



    Examination of the various networks, classified and unclassified, would serve
    to help the foreign affairs community in addressing Overseas Presence Advi-
    sory Panel recommendations for initiating planning for a common platform
    for secure classified information sharing, subsequent to the secure, unclassi-
    fied system initiative.
•   Executive-level Sponsorship: IRM stated that the activities of the FASI
    program were hampered by a lack of guidance and sponsorship by the parent,
    Under Secretary-level, Overseas Presence Right-Sizing Committee which
    ceased operation in early 2000, and that consistent with resource, schedule,
    and interagency involvement constraints, executive-level sponsorship was
    solicited and obtained. IRM stated that it was on the advice of its inter-
    agency partners that development of formal interagency agreements was
    deferred until a decision was reached regarding world-wide system deploy-
    ment. OIG discusses in the report the constraints under which the FASI
    program was carried out and acknowledges the difficulties that may have
    been encountered in ensuring executive-level sponsorship. Although the
    interagency partners may have agreed to postpone formal interagency agree-
    ment until production system deployment, this decision had an adverse
    impact of leaving FASI without the leverage or vehicle for ensuring inter-
    agency commitment and ongoing executive-level involvement to support the
    program through to fruition. Securing interagency agreement early on is a
    lesson learned for any future directions that the program may take.
•   World-wide Deployment Costs: IRM stated that projected costs for world-
    wide deployment could not be determined reliably until a pilot vendor was
    selected and that such costs were prepared and presented shortly afterwards.
    As discussed in the report, however, vendor selection occurred in February
    2002, while cost estimates were not released until July 2002. As with any IT
    investment, cost and budgetary issues were crucial to ensuring ICZ buy-in.
    However, the Finance Working Group that could have guided continuing
    efforts to address this cost issue remained in hiatus for 9 months before
    reconvening in June 2002. As OIG recommends in the report, and as IRM
    agrees, establishing interagency agreement, cost estimates, funding strategies,
    and a cost-benefit analysis will be critical to ensure commitment to imple-
    menting the collaborative system.
•   Marketing the ICZ: IRM stated that marketing the ICZ was accomplished
    consistent with the availability of resources and pilot activities in Mexico and
    India. As OIG discusses in the report, however, FASI’s limited marketing
    approach hindered the ability to ensure the commitment of all foreign affairs
    partners to the ICZ approach. Broader marketing and enhanced representa-



OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   31 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED



             tive involvement from across the organizations is another lesson learned for
             ensuring support for ultimate global system deployment.
        •    Timing of the Pilot: IRM agreed that the ICZ pilot schedule was compressed
             and occurred during the peak summer rotation and vacation months. OIG
             revised the report to discuss IRM’s push to accomplish the pilot in the com-
             pressed time frame to meet its initial program commitments. OIG also
             updated the report to reflect the Under Secretary for Management’s decision
             to extend the pilot evaluation through October 31, 2002.




32 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                         UNCLASSIFIED



                                                                                           APPENDIX A



SCOPE AND METHODOLOGY
To meet its review objectives, OIG first researched U.S. laws, federal guidance, and
a Department project management methodology to identify relevant criteria for
acquiring IT systems. OIG then reviewed documentation obtained from the
Internet on background information about knowledge management and other
collaboration system initiatives comparable to the ICZ effort. OIG reviewed
reports and met with officials from the General Accounting Office to learn about
their reviews of Department efforts to lead the foreign affairs agency collaboration
system effort. OIG also reviewed documents provided on the FASI Intranet site to
gather background data on the project, including working group charters, meeting
minutes, and project mission statements, descriptions, and milestones.

    OIG met with officials in the FASI program office to learn about their ICZ
approach and to discuss analyses conducted to support that approach. Specifically,
OIG interviewed the FASI program manager to discuss coordination with other
federal agencies and to discuss a range of issues regarding program management.
OIG met with officials from FASI’s Standards, Planning, Policies and Architectures
Group to discuss development of the strategic plan, user requirements, and an
enterprise architecture10 to support the program. Officials in FASI’s Knowledge
Management group told OIG about the statement of work and vendor selection for
the ICZ pilot, as well as marketing and advocacy. The head of FASI’s Technology
group discussed information security, technical aspects of the project, and building
the infrastructure in preparation for the pilot. Further, technical staff in the pro-
gram office discussed efforts to meet the pilot schedule. Officials from the various
groups within FASI provided a range of documentation to support their comments,
including the prototype analysis, the technical requirements survey, the pilot
tactical plan, migration plan, and user and system requirements. OIG attended
Interagency Architecture and Knowledge Management/IT working groups headed
by FASI. OIG also viewed demonstrations and participated in training provided by
FASI and contractor staff on the capabilities and use of the ICZ system.

    Also within the Department, OIG met with representatives from several
regional bureaus— Western Hemisphere Affairs, African Affairs, and Near Eastern

10
   Enterprise architecture refers to a strategic information asset base that is defined based on the require-
ments of the Department’s primary purpose, i.e., the formulation of foreign policy and conduct of
foreign relations and diplomacy.


OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002    33 .

                                         UNCLASSIFIED
                                        UNCLASSIFIED



        and South Asian Affairs—to determine their awareness of the project and their
        level of participation and commitment. Officials from the International Coopera-
        tive Administrative Support Services Office told OIG about making administrative
        information available to users during the ICZ pilot. IRM officials told OIG about
        their responsibilities for monitoring and controlling the IT infrastructure to support
        the program. OIG also interviewed officials from the Bureau of Diplomatic
        Security to obtain their views of the proposed security plan for the pilot and
        discuss other security issues related to the project. Further, a representative from
        A/LM discussed with OIG its efforts to contract an evaluator for the pilot. Senior
        officials within the Office of the Under Secretary for Management discussed
        oversight of the ICZ effort and the recommendations they made for improving
        program direction.

             Representatives of other federal agencies also told OIG about their participa-
        tion and commitment to the interagency knowledge management initiative. Spe-
        cifically, within Defense, OIG met with representatives from the Defense Security
        Cooperation Agency to discuss coordination with the FASI program office and with
        officials from the Defense Intelligence Agency to obtain information about their
        collaboration and knowledge management system. OIG met with several represen-
        tatives from Justice, including its Management Division and Drug Enforcement
        Agency, to discuss information sharing among agencies and concerns they had
        about the security and cost of the ICZ system. OIG also met with representatives
        from Agriculture, Commerce, Transportation, Treasury, and the USAID to discuss
        their contributions to user requirements, involvement in vendor selection for
        conducting the pilot, and any concerns they might have about information security
        during systems testing and implementation. OIG also asked these officials about
        the level and quality of FASI program office communication and coordination with
        them throughout the ICZ project.

            Representatives from these and other foreign affairs agencies at Embassy
        Mexico City told OIG about their participation in FASI pilot operations. They
        addressed a variety of subjects, including input to system requirements, training,
        ICZ capabilities and user-friendliness, and agency commitment to the program.
        OIG also interviewed senior managers and other officials overseas assigned to the
        Department’s political, economic, consular, public diplomacy, and administrative
        sections to obtain their views about pilot test management and the potential utility
        of the tools available on ICZ. In addition, OIG met with embassy IT staff to
        discuss the technical difficulties encountered and the support received from the
        FASI office to address them.

             Finally, OIG met with representatives from various organizations to discuss


34 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED



their experiences in establishing and managing knowledge management and col-
laboration systems. Representatives from the Army’s Knowledge Management
Office provided a demonstration of their knowledge management system and
discussed their experience in establishing the program within Army. A representa-
tive from the Defense Finance and Accounting Service shared knowledge manage-
ment practices based on experiences in designing a prototype of a collaboration
system for testing and implementation throughout the agency. OIG also met with
representatives from a consulting organization to learn about advice to the FASI
program and lessons learned from implementation of a knowledge management
system within their organization.

    OIG conducted its review from March 2002 to September 2002 at the Depart-
ment in Washington, DC, and at Embassy Mexico City. OIG performed its work in
accordance with generally accepted government auditing standards. OIG obtained
formal written comments on a draft of this report from the Bureau of Information
Resource Management. OIG also obtained informal oral comments on the draft
report from the Office of the Under Secretary for Management. Major contributors
to the report were Frank Deffer, Sondra McCauley, Barbara Ferris, Vandana Patel,
and Pamela Young. Comments or questions about the report can be directed to Mr.
Deffer, Assistant Inspector General, IT Evaluations and Operations, at
defferf@state.gov or (703) 284-2715.




OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   35 .

                                       UNCLASSIFIED
                                        UNCLASSIFIED




36 .   OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002

                                        UNCLASSIFIED
                                       UNCLASSIFIED
                                                                                                        APPENDIX B
                                     DEPARTMENT COMMENTS




OIG Report No. IT-A-03-02, The Foreign Affairs Systems Integration Project Needs Redirection - November 2002   37 .

                                       UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
